<html>
<title> - THE FEDERAL PROTECTIVE SERVICE: TIME FOR REFORM</title>
<body><pre>[Senate Hearing 111-686]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-686
 
            THE FEDERAL PROTECTIVE SERVICE: TIME FOR REFORM

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                                 of the

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 8, 2009

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
51-791                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a8cfd8c7e8cbdddbdcc0cdc4d886cbc7c586">[email&#160;protected]</a>  

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK L. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana
ROLAND W. BURRIS, Illinois
MICHAEL F. BENNET, Colorado

                  Michael L. Alexander, Staff Director
              Jason M. Yanussi, Professional Staff Member
             Elyse F. Greenwald, Professional Staff Member
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
        Amanda Wood, Minority Director for Governmental Affairs
          Devin F. O'Brien, Minority Professional Staff Member
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Collins..............................................     2
    Senator Voinovich............................................     4
    Senator Burris...............................................    15
    Senator McCaskill............................................    26
    Senator Akaka................................................    28
Prepared statements:
    Senator Lieberman............................................    33
    Senator Akaka................................................    35
    Senator Burris...............................................    36
    Senator Collins..............................................    37

                               WITNESSES
                        Wednesday, July 8, 2009

Mark L. Goldstein, Director, Physical Infrastructure Issues, U.S. 
  Government Accountability Office...............................     4
Gary W. Schenkel, Director, Federal Protective Service, U.S. 
  Immigration and Customs Enforcement, U.S. Department of 
  Homeland Security..............................................    18

                     Alphabetical List of Witnesses

Goldstein, Mark L.:
    Testimony....................................................     4
    Prepared statement...........................................    39
Schenkel, Gary W.:
    Testimony....................................................    18
    Prepared statement...........................................    58

                                APPENDIX

Responses to post-hearing questions for the Record from:
    Mr. Goldstein................................................    67
    Mr. Schenkel.................................................    72


            THE FEDERAL PROTECTIVE SERVICE: TIME FOR REFORM

                              ----------                              


                        WEDNESDAY, JULY 8, 2009

                                     U.S. Senate,  
                       Committee on Homeland Security and  
                                      Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in room 
SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Akaka, McCaskill, Burris, 
Collins, and Voinovich.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good morning. The hearing will come to 
order. Thanks to everyone for being here.
    The Federal Protective Service is the agency responsible 
for safeguarding 9,000 Federal buildings, the hundreds of 
thousands of Federal employees who work in them, and millions 
of people who come in and out of those buildings every year in 
cities all across America.
    Two years ago, Senator Collins, Senator Akaka, Senator 
Voinovich, and I asked the Government Accountability Office 
(GAO) to tell us how the Federal Protective Service (FPS) is 
doing its job. The answer GAO gives us today is simply that FPS 
is not doing its job. Most jarring, we will hear today that GAO 
investigators were able to smuggle liquid bomb-making materials 
into all of the Federal buildings they tested--that was 10--all 
of them--past apparently unsuspecting guards who did not 
possess the equipment to detect it, how they were then able to 
build real bombs in those 10 cases in restrooms, and then move 
throughout the buildings unbeknownst to the guards.
    GAO produced its first response to our request for an 
investigation of FPS last June, a broad analysis that concluded 
FPS lacked adequate financial and management practices, 
severely hampering its overall mission to keep Federal 
buildings and employees working within them safe.
    GAO's second report, this time specifically on the 
management of FPS's private contractor guard staff, is actually 
due later this summer. But preliminary conclusions which the 
Committee received and which are being released today were so 
disturbing to us that we decided to air them immediately to 
accelerate and intensify the work of turning the Federal 
Protective Service agency around.
    In short, GAO has found that the Federal Protective Service 
is not doing anywhere near enough to make sure that its 13,000 
private contract guards, the first line of defense at Federal 
buildings, are qualified and trained for their jobs or are 
actually doing what they were hired to do. FPS contract guards 
are required to have more than 60 hours of training, including 
training on how to operate metal detectors and X-ray equipment, 
pretty basic stuff for a guard. GAO found that in many cases, 
guards received no X-ray or metal detector training at all.
    The Federal Protective Service also requires guards to 
maintain certain certifications, for example, in 
cardiopulmonary resuscitation (CPR), first aid, firearms, and 
to provide proof that they have not been convicted of domestic 
violence. But GAO found that 73 percent of FPS contract guards 
lacked valid certifications in one or more of these critical 
areas.
    The GAO report describes how, after new guards were hired, 
the Federal Protective Service did little to ensure that they 
complied with relevant rules and regulations. For example, FPS 
did not conduct inspections of guard posts after regular hours, 
but GAO did and discovered guards taking prescription 
medication while on duty and sleeping on an overnight shift.
    In one truly unbelievable case, an inattentive guard 
allowed a baby to pass through an X-ray machine conveyor belt. 
That guard was fired, but he ultimately won a lawsuit against 
the Federal Protective Service agency because the agency 
couldn't document that he had received the required training.
    The most shocking affirmation of these troubling findings 
was when GAO investigators were able to smuggle that liquid 
bomb-making material into 10 high-security Federal buildings 
around the country--10 of 10 tested--all without detection.
    As we approach the eighth anniversary of September 11, 
2001, and 14 years after the bombing of the Federal Building in 
Oklahoma City, it really is outrageously unacceptable that the 
Federal employees working within our Federal buildings and the 
citizens who pass through them are still apparently so utterly 
exposed to potential attack by terrorists or other violent 
people.
    The fact is that the Federal Protective Service agency has 
suffered serious budget shortfalls in recent years which forced 
it to limit hiring, training, and overtime and to delay 
equipment purchases, all of which no doubt contributed to GAO's 
findings, but frankly don't explain them or excuse them.
    I know the agency has begun making initial adjustments to 
close the vulnerabilities GAO has documented, but it has a long 
way to go and its leadership and the leadership of the 
Department of Homeland Security in which FPS is located must 
get there quickly.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman. As you mentioned, 
the Federal Protective Service is a key component of our 
Nation's security. Every day, FPS officers and the agency's 
contract security guards protect nearly 9,000 Federal 
facilities, the people who work in them, and the visitors who 
come to them to access vital government services. 
Unfortunately, the GAO's investigation, as well as the recent 
report by the Department of Homeland Security's Inspector 
General, reveal alarming deficiencies in the Service's 
protective operations.
    Indeed, the GAO's investigation exposed major security 
failings at every single one of the 10 Federal office buildings 
that it tested. At each one of these facilities, GAO 
investigators were able to enter the building with concealed 
components for a bomb, pass undetected through checkpoints 
monitored by FPS guards, and proceed to assemble these 
explosive devices. I share the Chairman's concern that in each 
case, the GAO was able to carry this penetration out. In this 
post-September 11, 2001, world that we are now living in, I 
cannot fathom how security breaches of this magnitude were 
allowed to occur.
    The GAO also indicates that the FPS has failed to maintain 
effective oversight of its contract security guards. The GAO 
has indicated that in various regions, the contract guards had 
expired certifications, including very basic certifications for 
weapons, baton training, and CPR. We know from previous GAO 
reports that the FPS no longer proactively or routinely patrols 
Federal facilities to detect and prevent criminal and terrorism 
activities. FPS has also reduced hours of operation in many 
locations and has experienced difficulties maintaining security 
equipment, such as cameras, X-ray machines, and magnetometers.
    As a result, government buildings, the Federal employees 
who work in them, and the public who visit them are at risk. We 
taxpayers are simply not receiving the security we pay for and 
should expect FPS to provide.
    Symptomatic of these challenges, in the State of Maine, a 
large State, there are only two FPS inspectors to cover 
security at the Federal courts and to conduct the necessary 
inspections at the 24 ports of entry along the border. It is 
more than 300 miles from the Federal Courthouse in Portland, 
Maine, to the port of entry in Fort Kent, nearly 6 hours in 
driving time. With so few inspectors, FPS lacks the capacity to 
effectively respond to incidents at the thousands of facilities 
they are responsible for securing nationwide.
    To address these staffing concerns, last year, I joined 
then-Senator Hillary Clinton and our Chairman, Senator 
Lieberman, in sponsoring an amendment to increase the number of 
FPS employees. The need for these trained staff has never been 
more apparent.
    GAO's testimony reinforces the findings of an April report 
by the Inspector General (IG). From solicitation and award to 
contract management, the IG found critical failings in the FPS 
contract guard program. The contract guard sleeping at his post 
that GAO found illustrates the problems and the dangers. These 
findings raise a basic question that this Committee has 
wrestled with before: Should private security contractors be 
responsible for protecting our Federal facilities? Has the 
government become overly dependent on contractors to guard 
Federal buildings?
    As we look to improve the Federal Protective Service, we 
should try to strike a better balance between the number of 
government employees and contractors performing this vital 
protective mission. When we do rely on private security 
contractors, it is imperative that the FPS have a sufficient 
number of well-trained staff to manage these contracts 
effectively.
    The recommendations of the Inspector General include many 
concrete steps to improve the award of guard contracts and to 
increase the training and inspections necessary to strengthen 
their performance. As the Chairman indicated, there are so many 
examples of insufficient training. There are examples where 
there was no training for 5 years in the use of magnetometers 
and the X-ray machines, although, Mr. Chairman, I must say that 
I don't think it is a matter of training for a guard to realize 
that a baby should not be allowed to go through an X-ray 
machine. That, to me, shows that there are fundamental problems 
with the system.
    The FPS must take immediate action to adopt the 
recommendations to pay more attention to GAO's findings and to 
remedy these serious and startling security failures. Congress, 
too, should move forward with additional measures to help 
protect these facilities, our Federal employees, and the 
American public, and I look forward to working with the 
Chairman to accomplish that goal.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Collins.
    Senator Voinovich, because you participated with us in 
requesting this investigation, would you like to make an 
opening statement at this time?

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. I think the two of you have covered the 
waterfront. Thank you.
    Chairman Lieberman. Thanks, Senator Voinovich. Thanks for 
your partnership in this.
    The Senate will begin voting on two amendments around 11 
a.m., so we thought we would ask Mr. Goldstein to testify and 
then we will go through questions. Hopefully, we will get that 
done before then and then we will go to Mr. Schenkel.
    Mr. Goldstein is Director of Physical Infrastructure Issues 
for the Government Accountability Office. Thank you for your 
work and we welcome your testimony at this time.

     TESTIMONY OF MARK L. GOLDSTEIN,\1\ DIRECTOR, PHYSICAL 
  INFRASTRUCTURE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Goldstein. Thank you very much. Good morning, Mr. 
Chairman, Senator Collins, and Senator Voinovich. We are 
pleased to be here today to discuss the preliminary findings of 
our review of the Federal Protective Service's contract 
security guard program.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Goldstein appears in the Appendix 
on page 39.
---------------------------------------------------------------------------
    There has not been a large-scale attack on a domestic 
Federal facility since the terrorist attacks of September 11, 
2001, and the 1995 bombing of the Murrah Federal Building in 
Oklahoma City. Nevertheless, the recent shooting death of the 
guard at the U.S. Holocaust Museum, though not a Federal 
facility, demonstrates the continued vulnerability of public 
buildings to domestic terrorist attack.
    Thus, one of the Federal Protective Service's most critical 
responsibilities is to effectively manage its guard program so 
that the over one million government employees as well as 
members of the public who work in and visit the 9,000 Federal 
facilities each year are protected.
    To accomplish its mission of protecting Federal facilities, 
FPS currently has a budget of about $1 billion, about 1,200 
full-time employees, and about 13,000 guards deployed at 
approximately 2,300 of the 9,000 Federal facilities across the 
country. While FPS does not use guards at the remaining 6,700 
facilities under its protection, it frequently uses other 
security countermeasures, such as cameras and perimeter 
lighting, to help protect these facilities.
    In our June 2008 report, we found that FPS faced 
significant challenges in ensuring the quality and timeliness 
of its building security assessments and in maintaining 
complete crime statistics. We also reported that its risk 
assessment process was partially flawed. FPS uses these tools 
to determine how to protect Federal facilities.
    As of June 2009, FPS's guard program has cost about $613 
million and represents the single largest item in its budget. 
It is the most visible component of FPS's operations as well as 
the first public contact when entering a Federal facility.
    In June 2008, we reported that FPS faced several funding 
and operational challenges, including oversight of its guard 
program, that hamper its ability to accomplish its mission of 
protecting Federal facilities and ensuring the safety of the 
occupants. We recommended, among other things, that FPS develop 
and implement a strategic approach to better manage its 
staffing resources, evaluate current and alternative funding 
mechanisms, and develop appropriate measures to assess 
performance. To date, FPS has not fully implemented these 
recommendations.
    My testimony today is based on preliminary findings of our 
ongoing work and addresses. One, the extent to which FPS 
ensures that its guards have the required training and 
certifications before being deployed to a Federal facility; 
two, the extent to which FPS ensures that its guards comply 
with post orders once they are deployed at Federal facilities; 
and three, security vulnerabilities we identified related to 
the FPS guard program.
    The summary of my findings are as follows: One, FPS does 
not fully ensure that its guards have the training and 
certifications required to stand post at Federal facilities. 
While FPS requires that all prospective guards complete about 
128 hours of training, including 8 hours of X-ray and 
magnetometer training, FPS was not providing some of its guards 
with all of the required training in the six regions we 
visited. For example, in one region, FPS has not provided the 
required X-ray or magnetometer training to its 1,500 guards 
since 2004.
    X-ray training is critical because guards are primarily 
responsible for using this equipment to monitor and control 
access points at Federal facilities. Insufficient X-ray and 
magnetometer training may have contributed to several incidents 
in Federal facilities where the guards were negligent in 
carrying out their responsibilities. For example, at a Level IV 
facility in a major city, an infant in a carrier was sent 
through an X-ray machine when a guard had disabled the 
machine's safety features and was not paying attention to post 
duties. FPS fired the guard, who then sued FPS for not 
providing him with the required training. The guard won the 
suit because FPS could not produce any documentation to show 
that the guard had received the training. In recent 
discussions, FPS officials from that region could not even tell 
us whether the X-ray machine's safety features had been 
repaired.
    We also found that FPS's primary system, Contract Guard 
Employment Requirements Tracking System (CERTS), for monitoring 
and verifying whether guards have the training and 
certification required to stand post is not fully reliable. We 
reviewed training and certification data for 663 randomly 
selected guards in six of FPS's regions and found that because 
it was not reliable, that we also had to use databases 
maintained by the regions or information provided by 
contractors. We found that 62 percent, or 411 of the 663 guards 
who were deployed at a Federal facility had at least one 
expired firearm qualification, background investigation, 
domestic violence declaration, or CPR or first aid training 
certification that was missing.
    More specifically, according to the most recent information 
from one contractor, we found that over 75 percent of the 354 
guards at a Level IV facility had expired certifications. Based 
on the contractor information for a third contract, we also 
found that almost 40 percent of the 191 guards at that Level IV 
facility had expired domestic violence declarations. Without a 
domestic violence declaration in place, guards are not 
permitted to carry a firearm, and FPS, of course, does require 
guards to carry firearms.
    In addition, one of FPS's contractors allegedly falsified 
training records for its guards, an incident that is currently 
being litigated. FPS became aware of this alleged violation 
from an employee of the contractor, not from its own internal 
control procedures.
    Our second major finding is that FPS has limited assurance 
that its guards are complying with post orders once they are 
deployed to a Federal facility. FPS does not have specific 
national guidance on when and how guard inspections should be 
performed. The frequency with which FPS inspects these posts 
also varied across the regions. For example, one region we 
visited required inspectors to complete five guard inspections 
each month while another region did not have any inspection 
requirements at all.
    We also found that the inspections are typically completed 
during routine business hours and in metropolitan cities where 
FPS has a field office, seldom at night or on weekends. On 
occasions when FPS has conducted post inspections at night, it 
has often found instances of guards not complying with post 
orders. For example, at a Level IV facility, an armed guard was 
found asleep at his post after taking the pain killer Percocet.
    Similarly, FPS has also found other incidents at Level IV 
facilities where guards were not in compliance. While a guard 
should have been standing post, he was caught using government 
computers to manage a private for-profit adult website. At 
another facility, a guard had either failed to recognize or did 
not properly X-ray a box containing semi-automatic handguns at 
the loading dock.
    Our third principal finding is that we identified 
substantial security violations related to FPS's guard program. 
With components for an improvised explosive device (IED) 
concealed on their persons, GAO investigators passed undetected 
through access points controlled by FPS guards at 10 Level IV 
facilities in four major cities where we conducted covert 
tests. Our investigators used publicly available information to 
identify a type of device that a terrorist could use to cause 
damage to a Federal facility and threaten the safety of Federal 
workers and the general public. This IED was made with two 
parts, a liquid explosive and a low-yield detonator, and 
included a variety of materials not typically brought into a 
Federal facility by employees or the public.
    Of the 10 Level IV facilities we penetrated, eight were 
government-owned, two were leased, and they included offices of 
a U.S. Senator and U.S. Representative as well as agencies such 
as the Departments of Homeland Security, State, and Justice. 
Once our investigators passed the access control point, they 
assembled the IED and walked freely around several floors of 
the facilities and to various Executive and Legislative Branch 
offices with the device in a briefcase.
    In response to the security vulnerabilities we identified 
during our covert testing, FPS has recently taken steps to 
improve oversight of the guard program. Specifically, it has 
authorized overtime to conduct guard post inspections during 
non-routine business hours and is conducting its own 
penetration tests to identify weaknesses at access control 
points.
    FPS has conducted limited intrusion testing in the past and 
has experienced difficulties in executing such tests. For 
example, in 2008, one FPS region conducted intrusion tests of a 
Level IV facility and successfully brought a fake bomb into the 
building through a loading area. During the test, however, FPS 
agents misplaced the box containing the fake bomb. It was 
picked up by a guard who took it to the mailroom for 
processing.
    In March 2009, FPS also issued a policy directive intended 
to standardize inspection requirements across the regions. 
Implementing these new requirements may be challenging, 
according to FPS management and some of the regional staff to 
whom we talked. We will be reporting more fully on our findings 
with potential recommendations in September 2009.
    This concludes my oral statement, Mr. Chairman. I will be 
happy to answer any questions.
    Chairman Lieberman. Thanks very much, Mr. Goldstein. I must 
say that in all the years I have been hearing GAO reports, that 
is about the broadest indictment of an agency of the Federal 
Government that I have heard and it is not pleasant to hear it. 
Obviously, we are going to try to work together with the 
agency--as will you, I am sure--to improve its performance.
    Senator Collins and I, along with Senator Voinovich and 
Senator Akaka, will be introducing legislation to reauthorize 
the Federal Protective Service, but also to respond to some of 
the findings of your investigation to try to obviously change 
what exists now, because it is simply unacceptable.
    The indictment is a series of findings. To the extent that 
you are able today, what would you say the problem is here? How 
could this have been allowed to happen at an agency with such 
critical homeland security responsibilities? Is it a failure of 
management at the top level? Is it a failure of supervision at 
the regional or building level? Is it simply that we are not 
demanding enough from the private security firms that we are 
hiring to protect Federal buildings?
    Mr. Goldstein. I think, Mr. Chairman, that it is all of the 
things you have just mentioned. Through the work that we have 
done last year and this year for this Committee, I think we 
would be able to say that FPS is essentially an agency in 
crisis. Over the last 5 years, since its transfer from General 
Services Administration (GSA) to Homeland Security, they have 
not received the resources and the staffing that would be 
required. In fact, they were on a downward path until the 
amendment that Congress passed last year.
    There has been inattention at the highest levels of the 
Department of Homeland Security to the requirements for 
protecting Federal facilities. Actions by management over the 
last couple years to try to change and improve things have had 
some success, but in large measure have been difficult to 
achieve. A lack of resources has hampered them in not only 
having enough staff, but in having enough ability to improve 
the technology components of risk mitigation, as well.
    That, combined with what is a relatively antiquated 
approach to securing Federal buildings through our Federal 
Building Security Committee Management System, where all 
Federal buildings have their own committee and help determine 
what the security levels for those buildings ought to be, has 
not helped create a structured and uniform process.
    Chairman Lieberman. Why don't you say a little more? That 
gives us a lot to work on, let us put it that way. Talk a 
little more about the last point you made. Why do the local 
building committees get in the way of efficient and effective 
security?
    Mr. Goldstein. There are three tiers to how Federal 
buildings are protected. There is an Interagency Security 
Committee that promulgates standards that Federal buildings are 
supposed to abide by, but they are not mandatory. You also then 
have the Federal Protective Service, which uses some of its own 
funds as well as funds provided by tenant agencies to adopt 
various countermeasures. But the countermeasures need to be 
approved by Building Security Committees. Every single Federal 
building, particularly at the Level IV, which is the highest 
level of security outside of the White House and the Capitol, 
has a Building Security Committee made up of tenants, and 
usually the largest tenant of that building is the chair of 
that committee.
    The people who are on that committee, frankly, may be good 
at the jobs they have at the Social Security Administrtion or 
the Internal Revenue Service (IRS) or whatever else, but they 
are lay people and do not have security backgrounds. So many of 
the decisions being made about access control and other kinds 
of security decisions, like the kind of countermeasures that 
could be adopted or the funding that would be provided to adopt 
them, are being made by people who, frankly, ought not be 
making those kinds of decisions.
    Chairman Lieberman. So you would say that those standards 
should be set nationally and uniformly applied to all the 
Federal buildings?
    Mr. Goldstein. We certainly think it is appropriate for the 
Federal Protective Service and GSA to sit down and figure out 
whether the approach that has been adopted over the years is 
still applicable.
    Chairman Lieberman. Let me go to another part of your 
testimony and your findings. I take it you do feel that the 
cuts in funding for the Federal Protective Service are part of 
the problem here, but by no means the whole problem, that this 
is an agency in crisis.
    Mr. Goldstein. That is correct, Senator. A lot of the 
management issues have nothing to do with level of resources 
per se. Not having national guidance and standards for when and 
how to inspect guards, not having better standards for knowing 
when guards` certifications have expired, things like that are 
not resource-based, in our opinion. I think there has been a 
lack of attention to this part of the protective requirements 
of Federal buildings.
    One of the reasons over the years is the Federal Protective 
Service has also been pulled away from what many perceive as 
its principal duty, to protect Federal property, to do other 
kinds of things within the Department of Homeland Security----
    Chairman Lieberman. Such as?
    Mr. Goldstein. To work on National Infrastructure 
Protection Plans and that kind of thing. Resource constraints 
clearly do affect the agency. In our last report, we showed 
that when there were major trials in one region that 75 percent 
of the Federal Protective Service workforce was shifted to 
cover a courthouse and essentially left the rest of the region 
without any protection.
    Chairman Lieberman. I will say to you that it was our 
judgment in terms of funding--you are right. Last year, we were 
able to hold the Federal Protective Service basically harmless 
on its funding. Our judgment was, based on your ongoing 
investigation, that though resources may be part of the 
problem, they are not the whole problem, and therefore in this 
budget currently on the floor of the Senate, we didn't push for 
an increase in funding for the Federal Protective Service 
agency until we solve the management problem here. We didn't 
want to just throw more money at the problem until we had 
hopefully fixed the agency.
    Let me ask you to talk a little bit more about the failure 
to police the certifications that are required of the guards. I 
find that very troubling, beyond troubling, particularly when 
you think about expired firearms qualifications and domestic 
violence problems.
    Mr. Goldstein. It is very troubling, Mr. Chairman. We found 
in examining the system that it is simply a faulty system that 
FPS doesn't use itself for the most part. And so they end up 
having to try to follow the certification process, because it 
is FPS at the end of the day that is responsible for ensuring 
that the guards on post are qualified to stand there, not the 
contractors. And so obviously those certifications are required 
for them to do so.
    But the process they use is very paper intensive. You have 
essentially one person in each region who is responsible for 
putting information into a system and they are typically very 
far behind. So the system isn't used and they use their own 
back-of-the-envelope approaches.
    So when we went to check on the system and found that it 
wasn't used and isn't reliable, we then went and pulled files 
ourselves and then talked to contractors to get the most up-to-
date information on individuals, which might not have been--to 
avoid the issue of whether the actual certifications were in 
place but simply hadn't been recorded, and it turns out that 62 
percent of the files we looked at had at least one expired 
certification.
    The problem is, because the system doesn't work, that in 
almost all cases, FPS relies on the contractor to self-certify 
at this point in time and to simply say that their guards have 
the certifications, when in point of fact they often don't.
    Chairman Lieberman. A final question. I am over my time. Do 
the private security companies have a contractual obligation to 
certify their employees?
    Mr. Goldstein. They are required by the State. The States 
require these certifications to be in place.
    Chairman Lieberman. So right now, effectively, no one is 
really doing it as comprehensively as it should be done?
    Mr. Goldstein. That is correct. It is far less than 
comprehensively, Mr. Chairman.
    Chairman Lieberman. OK. Thank you, Mr. Goldstein. Senator 
Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Goldstein, I would like to ask you more questions to 
understand the penetration tests that GAO carried out. First of 
all, did GAO use actual bomb components?
    Mr. Goldstein. Yes, ma'am, we did. We did use actual bomb 
components, but they were at a level that would not actually 
set the bomb off. The concentration was below the trigger 
point.
    Senator Collins. But this isn't a case where you were 
smuggling in fake bombs. These were actual components for an 
explosive device?
    Mr. Goldstein. We brought in all the components that we 
needed to make a real bomb.
    Senator Collins. And are these components readily 
available?
    Mr. Goldstein. Yes, ma'am. They are all available through 
the Internet or through stores. It was under $150 to procure 
the various components required.
    Senator Collins. You see, that information is so 
disturbing, because it shows how easily a terrorist or a 
criminal could obtain these materials and smuggle them into a 
building. Is that a fair conclusion to reach?
    Mr. Goldstein. That is absolutely correct, Senator.
    Senator Collins. Are these materials, that are easily 
mistaken for legitimate materials, being brought in by a 
typical Federal employee?
    Mr. Goldstein. One of the concerns we had, Senator, was 
that in a number of the locations, three or four of them, the 
guards were not even looking at the screens that would show the 
materials passing through. So if a guard had been looking, they 
would have seen materials that are ordinarily not brought into 
a Federal building and should have stopped our investigators 
and asked, why are you bringing these kinds of things into a 
Federal building? What is your purpose? But in really no case 
did that occur. In only one instance did a guard ask about 
something that our investigator was carrying. A brief 
explanation. That guard let it go through.
    Senator Collins. I bring that information out because it is 
in contrast to the tests that are done by Transportation 
Security Administration (TSA) periodically at the airport where 
they will try to smuggle through very sophisticated devices 
that are cleverly concealed. In this case, it sounds to me like 
GAO did everything but put the word ``bomb making materials'' 
on the packages that you were putting through the X-ray 
machine. But if no one is looking at the screen, it is going to 
be pretty easy to get materials that are clearly suspect 
through. Is that a fair conclusion?
    Mr. Goldstein. Yes, Senator, it is. I think if people had 
been paying more attention to the X-ray machines, or if 
somebody had decided to give someone a secondary wanding, or if 
they had decided to do a random search of someone, they would 
have found these materials.
    Senator Collins. How did you choose the facilities?
    Mr. Goldstein. They were randomly chosen. They were just 
chosen--our only requirements were that they be a Level IV 
facility, because we wanted to go to the biggest facilities----
    Senator Collins. So that we fully understand this, explain 
what a Level IV facility is.
    Mr. Goldstein. Sure. There are standards that are just now 
changing. The old Department of Justice standards, which since 
1995, shortly after the Oklahoma City bombing, the Department 
of Justice put out standards that categorized buildings into 
five levels of security, Level I being the lowest, which is a 
storefront property, Level V being buildings like the White 
House, the Capitol, and Central Intelligence Agency (CIA) 
headquarters. A Level IV building is a building that houses 
more than 450 Federal employees, has major agencies in it that 
have probably national security or law enforcement 
responsibilities, and that, might be a likely target. And so 
the security requirements for those buildings are higher than 
they would be for Levels I, II, and III. So we purposely chose 
Level IV buildings.
    Senator Collins. For every test?
    Mr. Goldstein. For every test, and we purposely chose 
buildings which had agencies like Social Security or IRS in it 
so that you could just go in and didn't need an appointment. 
All our investigators did was to show a State driver's license. 
They did not show government I.D., just regular old 
identification that any member of the public would have to 
show.
    Senator Collins. So you chose facilities that are both 
bigger facilities, busier facilities where there is going to be 
a lot of traffic in and out. The public will have occasion to 
visit these facilities. There are hundreds of Federal employees 
working there every day. And they are the facilities that have 
the next to the highest level of security, is that accurate?
    Mr. Goldstein. That is correct, Senator.
    Senator Collins. And that, too, is disturbing because some 
Federal offices might be located in a commercial building where 
the Federal office may be the only Federal office there and 
thus the security may be at a significantly lower level because 
the building is unlikely to be the target of an attack. But 
that is not what you chose. You chose busy Federal facilities, 
eight of them Federal buildings, two of them leased for Federal 
space, and with the level of security that is second only to 
the White House and the Capitol, the very highest level. And 
yet in each case, you were able to smuggle in actual bomb 
components and then proceed to assemble them, as well?
    Mr. Goldstein. Yes, Senator. We were able to bring the 
materials into the building, go to bathrooms--in some cases, 
bathrooms were locked, but Federal employees let us into those 
bathrooms, and then we assembled the materials, usually in 
under 4 minutes. It is a very quick thing to put together. And 
then we would place it in a briefcase and walked around a 
variety of Federal offices, both Legislative and Executive 
Branch offices in the four cities we went to.
    Senator Collins. Let me just switch very quickly to the 
issue of the contracts. My reaction was the same as Senator 
Lieberman's and that is I was wondering why the company that 
wins the contract isn't required by the terms of the contract 
to ensure that all of its employees meet all of the 
certification and training requirements. To your knowledge, is 
that a contractual requirement?
    Mr. Goldstein. I am not certain of the answer. I do know 
that FPS has the ultimate responsibility to ensure that people 
who are standing post in a Federal facility have met all the 
training and the certifications required to handle that duty.
    Senator Collins. When our staffs looked at these contracts, 
we found that for the most part, they were awarded based on the 
lowest bid price as opposed to the best value. Best value can 
help ensure the quality as well as a fair price for the 
contract. Do you think it is a mistake that FPS is using the 
lowest bidder approach as opposed to a best value criteria?
    Mr. Goldstein. We haven't looked specifically at that, 
Senator. I think what is more important is for FPS to ensure 
that in its dealings with contractors, they understand that FPS 
is going to take them seriously and has systems in place to be 
able to ensure that these contracts are working as well as they 
need to be.
    Senator Collins. Thank you.
    Chairman Lieberman. Thank you very much, Senator Collins. 
Senator Voinovich.
    Senator Voinovich. Yes. I am going to ask you a series of 
questions, and if you could keep your answers short, I would 
appreciate it.
    Mr. Goldstein. Certainly, Senator.
    Senator Voinovich. First of all, does FPS today have the 
capacity to evaluate a building in terms of the location of the 
building and protecting the peripheral area, the technology and 
the bollards type of thing? And then beyond that, do they have 
the capacity to look at a building and ascertain just how much 
human capital they are going to need to secure the place?
    Mr. Goldstein. With respect to the building security 
assessments, we have reported a number of times that there are 
some concerns and challenges with how FPS manages that process. 
They are required to do building security assessments on all 
the buildings, but in many cases, the individuals are either 
not fully trained--there are too many buildings that have to be 
done in a certain time period--or there are other duties of the 
officers that get in the way. They are pulled in so many 
different directions.
    Senator Voinovich. In other words, the answer is that they 
don't have the full capacity to look at a building and 
ascertain from looking it over the type of human capital they 
are going to need to secure the building. In other words, I 
would think that for every building, Level IV, for example, you 
would have a plan, this is what we are going to need to secure 
this building.
    Mr. Goldstein. I don't think they do. We have also had 
concerns about their risk assessment process. They don't have 
complete crime statistics. They don't, as I mentioned, do 
everything they need to on building security assessments. And 
their approach to determining a risk assessment process, 
because it includes the Building Security committees and also 
doesn't include having a portfolio-wide strategy as opposed to 
a building-by-building strategy, I think gets in the way of 
effectively and efficiently protecting buildings.
    Senator Voinovich. Second, GSA pays for it. Is that a 
problem? In other words, today, for instance, the Capitol 
Police are out of the legislative budget of the U.S. Congress. 
Now, FPS tenants are charged back to GSA. Does that present a 
problem in terms of funding and going forward properly----
    Mr. Goldstein. Certainly.
    Senator Voinovich [continuing]. Or would they be better off 
being paid for separately?
    Mr. Goldstein. The tenants actually pay for it out of 
their----
    Senator Voinovich. Yes, but they are Federal tenants.
    Mr. Goldstein. Sure, but it is not GSA so much. It is the 
tenants. Should it be an appropriation versus a fee-for-
service?
    Senator Voinovich. Yes, that is the question.
    Mr. Goldstein. We have never taken a formal view on that. I 
think there are many reasons that it ought to be done, though, 
because I do think it does get in the way.
    Senator Voinovich. The other question is about contract 
guards. From what I can see, most of these outfits aren't doing 
the job that they are supposed to be doing. The issue is, it 
looks to me like they don't have the capacity to determine 
whether the contract guards are doing their work. That is, they 
don't have the oversight that is necessary to do that. Should 
we go to what we have here at the Capitol with our own police? 
We have people that work for the Federal Government. Should we 
farm this out to third parties? I think, Senator Collins, you 
had mentioned the lowest bid. If you get the lowest bid, you 
get the lowest quality.
    I am in one of those buildings. There are hundreds of 
people in there. We put their well-being in the hands of a 
third-party contractor. Does that make sense? Will we ever be 
able to get to the point where we don't have the kind of things 
that you found in your investigation by using contractors?
    Mr. Goldstein. I am not sure that you would ever fully 
avoid those issues, whether it is a contract or a Federal 
workforce. I think whichever kind of workforce is doing that 
job, they need to be much better trained and they need to have 
gone through the kind of background checks and the kind of 
supervision----
    Senator Voinovich. Will that ever happen by hiring private 
contractors, as we have been doing in the past?
    Mr. Goldstein. I think it can happen if FPS puts the 
resources to ensuring and overseeing it. When you have many 
parts of the United States where FPS rarely gets to visit the 
contract workforce except for perhaps once a year, I think you 
are always going to have these kinds of problems. But that is 
indeed the case.
    Senator Voinovich. Our best person, and I am going to try 
and find out, has been moved from Cleveland out to Hawaii and I 
would like to know, why are they moving him out? We just don't 
have the people there to get the job done. It is the same thing 
all over the country. It is just unbelievable to me that this 
thing has gone on for as long as it has.
    The other thing is that they have talked about Risk 
Assessment Management Programs (RAMP). We believe that we need 
to have performance metrics to determine whether people are 
doing the jobs that they are supposed to be doing. This new 
system is RAMP, and now they are saying it won't be ramped up 
in 2011. I think that is not soon enough, is it?
    Mr. Goldstein. Well, we have been concerned about the 
delays in RAMP and we have criticized FPS for not having the 
kind of performance metrics they need to do the job and to be 
able to put together a complete risk assessment approach to the 
portfolio.
    Senator Voinovich. Isn't there some commercial program that 
they could use that is off the shelf instead of starting from 
scratch and building their own?
    Mr. Goldstein. We have not looked at that, sir. Mr. 
Schenkel may be able to illuminate that. But we have not 
actually looked at the RAMP process itself other than to 
recognize that there are a lot of delays, and in the meantime, 
things are not getting better.
    Senator Voinovich. Let us get back to the contractors 
again. Do you think we would be better off if we got away from 
hiring contractors and went to our own policing?
    Mr. Goldstein. Senator, it is a policy decision. I think 
GAO would be uncomfortable making that kind of a 
recommendation.
    Senator Voinovich. Do you ever think they will have the 
supervisory people to make sure that we are not getting poor 
performance from these people?
    Mr. Goldstein. I think they could if they invested the 
time, the resources, and had the right management and staffing 
structure to do it. But it will take a lot more than what they 
have today. I don't mean specifically in resources, it will 
take some more resources, but it will take a lot more 
understanding of how to manage a very large program.
    Senator Voinovich. Is 1,200 people enough?
    Mr. Goldstein. Probably not, but it is hard to determine 
how many people they need until they have a risk assessment 
approach that allows them to determine how to mitigate risk 
across the portfolio. Right now, it is budget-driven, it is not 
risk-driven.
    Senator Voinovich. So from what I can see, you would almost 
have to start from scratch. They have to evaluate what they 
need, the number of people and the kind of people, and then if 
they are going to do the contracting out, they are going to 
have to have people on board that are supervisors to make sure 
that they don't get the short end on these contracts.
    Mr. Goldstein. They need to have the systems and the 
measures in place that would allow them to determine what their 
goals are, and from those goals, an understanding what the risk 
is for the portfolio to have a human capital model that would 
help them deploy the right resources based on where they have 
determined that the risks ought to be placed.
    Senator Voinovich. Well, I am anxious to hear Mr. Schenkel.
    Chairman Lieberman. Thanks, Senator Voinovich. Me, too.
    Senator Burris.

              OPENING STATEMENT OF SENATOR BURRIS

    Senator Burris. Thank you, Mr. Chairman.
    Mr. Goldstein, I have been around government a long time 
and we have some pretty big buildings in Chicago. I hope that 
none of those tests were done in Chicago. I don't suppose you 
can reveal where your tests were done, or did you in your 
testimony reveal any of the locations?
    Mr. Goldstein. You are right. Unfortunately, I can't reveal 
the locations in a public meeting, sir.
    Senator Burris. OK. But I would like to know privately 
whether or not any of those are in Chicago----
    Mr. Goldstein. I would be happy to talk to your staff.
    Senator Burris [continuing]. Because we have the Sears 
Tower, which is not a Federal building, but is always a target, 
so that is a deep concern.
    Could you confirm for me, Mr. Goldstein, that GAO ran these 
tests and only one of the GAO testers was caught going through 
the detector system with some type of bomb-making materials?
    Mr. Goldstein. Senator, in all 10 cases, GAO investigators 
were able to get through the metal detectors and the X-ray 
machines, and assemble their bombs. What I was referring to 
earlier was that in only one instance did any guard even ask a 
question. In all the other instances, no one even asked any 
questions about what was being brought in. But the explanation 
that the investigator gave the guard satisfied the guard. The 
material was put back on the X-ray machine and the investigator 
was allowed to proceed unhindered.
    Senator Burris. Now, I understand that this would be the 
normal airport-type security that we go through here in the 
Dirksen Building. There are guards down there and we have to go 
through the metal detectors. I assume that is the same type of 
apparatus that is out in these other buildings----
    Mr. Goldstein. That is correct. They are standard X-ray 
machines and magnetometers.
    Senator Burris. My concern is, I think we are pretty well 
protected here in the Capitol. I have seen lines wrapping 
around the wall and guards going through bags and pocketbooks 
very extensively to secure us, and what the GAO indication is, 
this is not happening in our Federal facilities out in the 
various States and communities.
    Mr. Goldstein. I can't make a comparison because we didn't 
look at the Capitol Police, Senator. But clearly, the ability 
to get into 10 large Federal buildings in four cities and make 
bombs undetected and walk around is an indication that those 
buildings are not fully secured. That is correct.
    Senator Burris. I would like to follow up on what Senator 
Voinovich raised in reference to the ability of FPS to have 
guards that are Federal employees rather than contract 
employees. Does GAO have a position on that, because I am 
pretty sure the Capitol Police are Federal employees. I don't 
think they are contract guards, are they?
    Mr. Goldstein. You are correct, Senator. They are Federal 
employees. We don't have a position on whether they ought to be 
federalized or whether they ought to be private contractors, 
and frankly, we haven't made recommendations yet at all because 
we haven't finished the work. We will issue our report in 
September. But we do feel that regardless of whether they are 
Federal or contract, the training, the certifications, and the 
kinds of things they are doing, both to be placed at posts and 
then once they are on post, to follow post responsibilities, 
has not been fully adequate.
    Senator Burris. Do you know if there have been any tests 
run by GAO on the Capitol itself?
    Mr. Goldstein. That was not part of this work here.
    Senator Burris. It was not part of the study. Interesting. 
Now, in reference to the contractors, who is really responsible 
for training them? Is it a contractor's responsibility or a 
Federal responsibility? Who is responsible?
    Mr. Goldstein. It is a combination, Senator. The contractor 
is responsible for making sure that their people are trained, 
that they get the CPR training and the first aid training. Some 
of the training is done by FPS, such as the weapons training. 
All the guards are qualified at a range by a FPS officer. So it 
is a mixture of the training that is required.
    Senator Burris. OK. It looks to me like we don't know who 
actually is doing the training because you said it is a 
mixture.
    Mr. Goldstein. Well, it is a combination. In other words, 
there will be classes that the contractors hold for the guards 
on basic kinds of issues of how to be a guard and that kind of 
requirements. But some of the training has to be done by the 
Federal Protective Service, and that includes the firearms 
training. No guard is supposed to be able to stand post unless 
they have been qualified by a FPS officer on a range.
    Senator Burris. In some of our smaller communities where 
there are Federal facilities, I wonder if there have been any 
tests in small communities. If I was a terrorist--and I don't 
want to give them any ideas--but if I was a terrorist, I 
probably wouldn't try Chicago. I would probably try Centralia, 
Illinois, which is my home town, where there are 12,000 people. 
I wonder what type of training--there is a Federal facility in 
Centralia--that contractor or those guards would have. So did 
you try any small facilities at all?
    Mr. Goldstein. I would be happy to talk to your staff and 
let them know exactly where we did go, Senator.
    Senator Burris. Please do.
    Mr. Goldstein. Certainly.
    Senator Burris. I would appreciate that. And Senator 
Collins, the terminology we use in State government is 
generally the lowest responsible bidder and that lowest 
responsible bidder means that the bidder may not be the lowest 
price, but it has the training and the skills and the ability 
to carry out the assigned contract responsibilities. And so 
that is what I would hope the FPS would be looking at in terms 
of the contract that they sign. Or we ought to look at 
requiring all of these guards be Federal employees that would 
go through Federal training processes, even though it might be 
difficult to do.
    But this is alarming in terms of the times that we are 
living in and the environment in which we are living, that 
someone who wants to make a violent statement could do so--it 
doesn't have to be an outside terrorist, it could just be a 
local angry person. We have this problem with our judges right 
now and what is happening with them--we did have the family of 
one of our Federal judges murdered in Chicago. And so something 
has to be done.
    Thank you, Mr. Goldstein. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Burris. I totally 
agree with you. I mean, look, we just had a few weeks ago that 
case where the homegrown terrorist who was radicalized here 
walked into an Army recruiting station in Little Rock, 
Arkansas, and killed an Army recruiter. Federal buildings are, 
unfortunately, natural targets for anybody who wants to cause 
us harm because of their symbolic value and meaning.
    This is really serious stuff and I appreciate the work that 
you have done, Mr. Goldstein. There is always a risk in going 
public with this, but what we hope is, of course, that going 
public will generate a rapid response, both from FPS, the 
Department of Homeland Security, and Congress.
    It is ironic that we are focusing on this today in the 
aftermath of the deadly incident at the Holocaust Museum here 
in Washington, which as you mentioned, I guess, is not a 
traditional Federal facility. But it does receive assistance 
from the Federal Government. But I have asked my staff--maybe 
they will work with you on it--to just take a look at that, 
because those guards performed heroically in that crisis, and 
to take a look at what their arrangements are for their 
security systems and personnel and the extent of their 
certification and management. I know it is one facility, but it 
may be a standard that we want to try to meet in all of our 
facilities.
    I am going to try to see if we can give Mr. Schenkel an 
opportunity to give his opening statement before we break to go 
and vote, and then we will come back for questioning.
    Mr. Goldstein, I thank you very much and we will follow 
your work. We look forward to the report later in the summer 
and we want to work with you on the legislative response, which 
is urgent, as well. Thank you.
    Mr. Goldstein. Thank you, Mr. Chairman and Senator Collins.
    Chairman Lieberman. Mr. Schenkel, we will call you to the 
table now, Gary W. Schenkel, Director of the Federal Protective 
Service, and ask you to respond to this very serious indictment 
of the agency that you head. Please be seated.

TESTIMONY OF GARY W. SCHENKEL,\1\ DIRECTOR, FEDERAL PROTECTIVE 
    SERVICE, U.S. IMMIGRATION AND CUSTOMS ENFORCEMENT, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Schenkel. Chairman Lieberman, Ranking Member Collins, 
and distinguished Members of the Committee, thank you for this 
opportunity to appear before you today. Although the Government 
Accountability Office has yet to provide the U.S. Immigration 
and Customs Enforcement (ICE) Federal Protective Service a 
draft report regarding concerns that have been recently 
released by the GAO, I welcome the opportunity to appear before 
you today and to discuss the immediate actions I have put in 
place to address these security concerns in advance of 
receiving this report.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Schenkel appears in the Appendix 
on page 58.
---------------------------------------------------------------------------
    As I have testified previously, FPS delivers integrated law 
enforcement and physical security services to Federal agencies 
in 9,000 General Services Administration (GSA) owned and leased 
facilities throughout the United States and its territories. 
The FPS performs fixed post access control, implements 
screening functions, and provides roving patrols of facility 
perimeters and communal open space.
    FPS is comprised of 1,225 law enforcement and support staff 
personnel. FPS also utilizes more than 15,000 contract security 
guards employed by private companies to supplement physical 
security services. FPS Law Enforcement Security Officers 
(LESOs) and more aptly termed as inspectors, are uniformed law 
enforcement officers who possess the full authority and 
training to perform traditional police functions.
    Currently, FPS has approximately 600 inspectors who are 
trained as physical security experts and provide comprehensive 
security services, such as facility security assessments and 
implementation of testing of security measures. FPS conducts 
nearly 2,500 facility security assessments every year. In 
fiscal year 2008, FPS responded to 2,571 protests and organized 
disturbances, made 1,888 arrests, investigated more than 2,100 
accidents, investigated 1,503 larcenies, processed 248 weapons 
violations, and prevented the intrusion of 669,810 banned items 
into Federal facilities, with significant assistance of 
contract guards.
    Of the approximately 9,000 buildings protected by the FPS, 
1,500 are categorized as Level III and Level IV, our highest-
risk buildings.
    Upon my arrival in 2007, it was apparent FPS was 
experiencing some serious challenges. Since its transfer from 
the GSA in 2003 with a full-time equivalent (FTE) workforce of 
1,400 spread across the country in 11 different regions, FPS 
needed to focus on becoming a single standardized agency. This 
required a new operational construct as well as developing new 
business practices. FPS simultaneously faced budget constraints 
which could have resulted in having to reduce the number of 
FTEs.
    The fiscal year 2008 President's budget supported 
approximately 950 FTE personnel. To avoid having to reduce the 
number of FTEs, FPS sought to realize financial savings in 
other areas rather than cut personnel. Consequently, many 
programmatic elements, such as training and equipment 
purchases, had to be rescheduled until FPS received sufficient 
funding. What remained unchanged, however, was FPS's obligation 
to protect the 9,000 GSA owned and leased facilities, oversee 
the 15,000 armed security guards, and manage over 150 
contracts.
    During this period, FPS carefully assessed its organization 
and made difficult decisions based on customer input and 
expectations. This refocusing of effort culminated in a FPS 
strategic plan that shaped our future activities. In 
particular, FPS focused on standardizing procedures.
    In 2008, the Consolidated Appropriations Act gave FPS 
needed resources by establishing a workforce foundation of no 
less than 1,200 Federal FTEs and the authority to raise fees to 
financially support that number. As a result, in March 2008, 
FPS embarked on its first hiring effort in more than 6 years. 
FPS now has 1,236 FTEs. This monumental hiring effort presented 
new challenges in addition to implementing the FPS strategic 
plan to create a standardized operation to provide daily 
operational support to our customers. The strategic 
transformation of our workforce to acquire the appropriate 
skills in the appropriate geographic locations will continue to 
be paramount on our task list and will underpin our 
comprehensive mission action plan.
    When GAO presented its alarming oral report to us several 
weeks ago, it caused us all grave concern. We have all worked 
very hard and were taken aback upon receipt of this disturbing 
news. We knew we had challenges ahead of us, and 
coincidentally, we have also noted and initiated corrective 
actions to address these shortcomings.
    Within 3 hours of learning of the lapses of visitor 
screening procedures, I, along with my senior staff, conducted 
a conference call with the 11 regional directors to brief them 
on the issues. During that call, I instructed the regional 
directors to immediately increase the number of inspections of 
protected facilities in their respective regions, to report 
directly to FPS headquarters specific actions they would take 
to address and correct contract guard performance issues.
    I promptly issued letters to the regional directors and 
contract guard companies' customer agencies, FPS employees, and 
other stakeholders that notified them of the following actions 
that we would take to address them and some of the GAO 
findings. These actions included: Establishing a national study 
group headed by two experienced FPS regional directors to 
examine FPS visitor and employee screening procedures; 
directing FPS regional directors to immediately begin to 
exercise recently established overt and covert inspection 
techniques to assess various elements of employee and visitor 
screening processes; requiring regional directors to institute 
random searches of packages, briefcases, and bags as part of 
visitor and employee screening procedures, and ensure there are 
posted signs alerting those entering the building that they are 
subject to these searches; instructing regional directors to 
take all necessary action to immediately increase its oversight 
and inspection of contract guards; directing FPS employees and 
other stakeholders to be constantly vigilant, to immediately 
report poor performance of duties by contract guard force to 
FPS law enforcement personnel or their supervisors; reminding 
the contract guard companies that substandard performance by 
contract guards is unacceptable and will not be tolerated, and 
informing them the number of frequency of inspection of the 
guard posts and certifications will increase; issuing an 
information bulletin to all inspectors and security guards to 
provide them with the information about package screening, 
including examples of disguised items that may not be detected 
by magnetometers or X-ray equipment; contacting all customer 
agencies and asking that they raise their security awareness 
and asking them to review their respective building access 
procedures to ensure they meet their business and security 
needs; and contacting GSA regional administrators and their 
offices of security informing them of all of our actions.
    Going forward, we have established Tiger Teams headed by 
senior FPS regional directors and aggressively attacked the 
challenge of overseeing the contract guard program. Within the 
next 60 days, the FPS will seek to identify training gaps in 
the contract guard force and take immediate steps to close 
them; increase the frequency and vigilance of the inspections 
of guard posts and contract companies to identify guards with 
expired certifications and qualifications; establish and 
develop training schedules to ensure contract guards receive 
current and adequate training in magnetometer and X-ray 
screening operations and techniques; and initiate dialogue with 
the DHS Science and Technology Directorate, the Transportation 
Security Administration, to explore and research new 
technologies as well as training opportunities to assist in 
mission accomplishment.
    FPS realizes the evolving nature of security and has been 
moving forward. We have well over 30 percent of our FTEs 
involved in various levels of training. We are on our way to 
becoming a mature, experienced, and well-trained organization. 
The training process requires a full 32 weeks of intense 
training to become an inspector.
    We have promulgated five new policies that will strengthen 
the contract guard program, ranging from refinement of the 
contract award process to the mandatory frequency of guardpost 
inspections. We have developed seven financial process standard 
operational procedures and have begun the necessary training to 
institutionalize the use of these processes.
    FPS is in the final development stages of the Risk 
Assessment Management Program, which will revolutionize the 
facility security assessment process and negate the need to use 
the six disparate systems currently used by our inspectors. It 
will provide accurate and timely codification of guard training 
and certification processes and post inspections.
    The Computer-Aided Dispatch and Information System will 
standardize reporting procedures, consolidate crime and 
incident reporting, and time-stamp our operations, thus 
providing accurate, defensible data to support future staffing 
models.
    FPS will award a contract for the post-tracking system, 
which will strengthen the accuracy of post staffing and billing 
and will further reduce the administrative burden on our 
inspectors, allowing them more time for active patrol and guard 
oversight. All three of these systems will come online in 
fiscal year 2010.
    In addition to the technological solutions, we are focused 
on providing greater training and maturity to our workforce. We 
are dedicated to our mission, to our profession, and to 
improving our organization to meet the expectations of this 
extremely important mission.
    I want to express to you my personal sense of urgency and 
commitment to the important responsibility I share with the men 
and women of FPS in keeping our Nation safe. I am honored to 
lead the proud and professional men and women of FPS. I can 
tell you that they are dedicated, determined, and committed to 
developing, implementing, and maintaining the highest level of 
physical security to ensure that facilities that they are 
charged with protecting are secure and their occupants are 
safe. I am confident that they can be relied upon to ensure the 
FPS will continue to meet the challenges of its homeland 
security mission.
    Thank you again, Chairman Lieberman and Ranking Member 
Collins, for holding this important oversight hearing. I will 
be pleased to answer any questions you might have at this time.
    Chairman Lieberman. Thanks, Mr. Schenkel. That vote has 
gone off and we will go and vote and come back.
    I just want to very briefly say that from the statement you 
have made--incidentally, we don't have a report either. I 
gather you were briefed, as we were, on an interim basis and 
the full report will come out later in the summer, hopefully. 
But I take it at this point, from what you are not contesting 
the factual basis of the findings of GAO that were critical of 
the agency?
    Mr. Schenkel. No, Senator, we are not.
    Chairman Lieberman. And insofar as you have offered excuses 
or explanations, what I heard was that the reduction in the 
full-time equivalent staff a few years ago may have contributed 
to some of the criticism that GAO has made this morning, is 
that correct?
    Mr. Schenkel. That is correct, Senator. I take full 
responsibility. I am the Director of the organization. There 
are some impacting factors that I think have made significant 
differences and I think they will come to light during the 
questioning, sir.
    Chairman Lieberman. Fine. Senator Collins, do you want to 
ask a question or two or do you want to wait?
    Senator Collins. I think I will wait. Thank you.
    Chairman Lieberman. OK, thanks.
    The Committee will stand in recess. We will get back as 
soon as we can. It won't be less than 20 minutes. Please stay 
close at hand.
    [Recess.]
    Chairman Lieberman. The hearing will come back to order. I 
thank you, Mr. Schenkel, and others here for your patience 
while we were over on the Senate floor voting.
    Let me ask you an open-ended question, and you were good 
enough to acknowledge the facts of the GAO report and to list 
some of the things you are doing, which I appreciate, to 
respond to the report. And I understand that you haven't been 
there for years, but you have been there since, I guess, 2007, 
so you are in your second year. Stepping back so that we may 
learn, how do you explain to yourself how these things were 
allowed to happen at FPS?
    Mr. Schenkel. At FPS in general, or are we specifically 
talking about these security----
    Chairman Lieberman. The security guards, correct.
    Mr. Schenkel. Yes. It is purely a lack of oversight on our 
part. I think Senator Voinovich mentioned that perhaps starting 
from scratch was the way to go about it. In essence, we have 
started from scratch twice. When I came on board in April 2007, 
my task was to organize 11 police departments into one.
    Chairman Lieberman. When you came on, did you know the 
agency was in some difficulty?
    Mr. Schenkel. Not as much as it turned out to be.
    Chairman Lieberman. Yes. But as you came on and reviewed 
what was there, you saw some problems, and one, I take it, is 
very important, though not particularly sensational, but it 
sounds like there were 11 fiefdoms, not one uniformly 
administered national organization, is that right?
    Mr. Schenkel. That is correct, Senator.
    Chairman Lieberman. Go ahead.
    Mr. Schenkel. At that time, we fully recognized our 
challenges ahead of us, taking 11 different ways of doing 
business--I am certainly not saying that was the wrong way to 
do things, I will just say this was a new era that we had to 
deal with, so consequently we had to standardize our efforts, 
and to do so at a time when we were also facing some fairly 
austere times and had to reduce numbers, we had to concentrate 
on what our core mission was, and that is the protection 
mission.
    We were fairly distracted in previous years, for a lot of 
different reasons, none of them valid at this point, but we 
recognized that our core mission was to protect Federal 
facilities and their occupants. So we developed a strategic 
plan to get us there at the same time we were downsizing to a 
fairly paltry number of people with which to do this. So we had 
to make some very drastic decisions as to what we would 
concentrate on, reprioritize our efforts.
    Subsequent to that, thanks to the 2008 omnibus bill, we 
were regenerated, if you will, and we were able to embark with 
our first hiring effort in at least 6 years----
    Chairman Lieberman. And again, those are full-time 
equivalents, if you will, the people who supervise the contract 
private security guards.
    Mr. Schenkel. Yes, Senator. We made a conscious decision to 
go to the LESO, as opposed to trying to carry both inspectors 
and police officers because of our core mission. We needed the 
flexibility, especially with the downsizing. We needed 
individuals that could do both police officer operations, and 
the inspection and protection mission.
    Getting that rejuvenation, if you will, out of the 2008 
omnibus bill and then being able to hire has been a tremendous 
move in the right direction. We are at 1,236 today.
    Chairman Lieberman. Twelve-hundred-and-thirty-six full-time 
equivalents?
    Who supervise the 13,000 to 15,000 private security guards?
    Mr. Schenkel. Yes, Senator.
    Chairman Lieberman. Do you think you have overcome that 
sense you found that these were 11 fiefdoms, 11 separate police 
departments, as you said?
    Mr. Schenkel. When I came here, I made an analogy that we 
were a ship and it takes 38 miles at sea to turn an aircraft 
carrier. I think we are probably on mile six, but we certainly 
initiated the turn.
    Chairman Lieberman. Because as I listened to both you and 
the GAO's witness earlier, in the question of the security 
guards I was left with a question in my mind about who is in 
charge. In other words, it seems to me that some of the work 
done by what I would call the supervisors that are working 
full-time for the Federal Protective Service is the work that 
normally would be done as part of a contract by the security 
guard company. So I wonder if it is clear who is in charge.
    Mr. Schenkel. The contracts are written very specifically. 
Whether they are written completely and comprehensively in 
comparison to our mission, I think bears some scrutiny. We have 
recognized, fortunately, because we have been involved with the 
GAO for at least the full 2 years that I have been here, they 
have provided us validation on many of the things that we have 
recognized internally as being an inherent responsibility 
either for the FPS or an inherent responsibility for us to take 
on that maybe a non-traditional role in the past.
    The training issue, I think, is one of the most prevalent. 
We are responsible for 16 hours of entry-level training of the 
contract security guards----
    Chairman Lieberman. So FPS is responsible, not the security 
guard company?
    Mr. Schenkel. That is correct, sir. And I think through our 
findings, and this report certainly validates it, that we need 
to be much more involved, and that is our intent, to take a 
more active part in standardizing the training itself, 
monitoring the training, and in many cases I think we need to 
actually deliver the training to ensure compliance and to 
ensure standardization across all 50 States.
    Chairman Lieberman. Finally, before I yield to Senator 
Collins, one of the ideas under active consideration, as you 
well know, is to take the Federal Protective Service from 
Immigration and Customs Enforcement, where it is now, and move 
it into the National Protection and Programs Directorate (NPPD) 
of the Department of Homeland Security, maybe into the Critical 
Infrastructure Protection division, where it certainly seems by 
your responsibility you better belong. Do you have an opinion 
on that?
    Mr. Schenkel. I think that I obviously agree with the new 
Secretary's opinion that it does align our mission along with 
that of critical infrastructure protection. I think it will 
also give us the visibility that I think is necessary for 
people to recognize that we are the security provider and that 
we do have a level of expertise that can only get better.
    Chairman Lieberman. Yes, I agree. Part of what comes out of 
this report today is that this has to not only be your urgent 
responsibility to change a status quo which is unacceptable, 
and you acknowledge it is unacceptable, but that there has to 
be involvement from the highest levels of the Department. Mr. 
Goldstein said that earlier, and we are going to do our best to 
make sure that happens.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Schenkel, I don't doubt that you are very troubled by 
the GAO's findings and I appreciate your accepting 
responsibility and your commitment to reforming the agency. 
What troubles me most is that what GAO found indicates systemic 
problems. If GAO had been successful in smuggling bomb 
components into one or maybe two buildings, it still would have 
been troubling, especially since these are high-risk, high-
security buildings. But the fact that GAO succeeded each and 
every time is so troubling and it indicates a pervasive, 
systemic problem. So now that you know this, now that you have 
been briefed, tell me what you believe specifically needs to be 
done.
    Mr. Schenkel. Senator, I believe that the GAO report and 
certainly these penetrations have really pointed out an 
ambiguity, if you will, in responsibility. There are standards 
that are assigned to Federal facilities based on the level of 
risk. There are procedures and processes that are followed to 
protect such buildings based on that level of risk. But at that 
point, it starts to get very ambiguous as to who is responsible 
for actually pinning down the specifics and standardize 
practices, if you will.
    I think that it is our inherent responsibility to not 
necessarily dictate, but certainly provide a baseline for all 
of the Federal facilities that would prevent something like 
this, or certainly mitigate the possibility of something like 
this happening again. I think that it is a partnership. FPS 
can't this alone. FPS needs not only the customer agencies, we 
also need the GSA, who has always been a good partner with us. 
And subsequently, we have established at least the baseline, if 
you will, and submitted this to GSA as a standard that would be 
prolific across all 9,000 buildings. I think that is a step in 
the right direction.
    Senator Collins. You are saying that responsibility needs 
to be clarified, but do you need more people, more training, 
more resources in other ways? We can't help you solve this 
problem unless we know specifically what you need to correct 
such egregious security lapses.
    Mr. Schenkel. Well, Senator, right now, we are coming up 
with some, I think, very aggressive means to address these 
problems, in particular training of our contract security 
guards, literally going back out to retrain them. The reality 
is, it is this same 600 inspectors that are also responsible 
for inspecting 9,000 buildings over periods of time. It is the 
same inspectors that respond to high-visibility, high-risk 
situations such as the terrorist trial that was mentioned 
earlier in the testimony.
    When we were at 1,400, we only had 7,500 guards to oversee. 
We are now at 1,200 and we have 15,000 guards to oversee. It 
breaks down to about 10 guard posts, which could actually be 
multiple guards, for every one inspector out there. That is if 
all the inspectors are fully trained, healthy, while on the 
job.
    Senator Collins. So that sounds like you need more people.
    Mr. Schenkel. The ratios are much greater now than they 
were in the past and our responsibilities have grown 
exponentially.
    Senator Collins. What about the responsibilities 
contractually that are put on the private security firms? 
Shouldn't there be contractual requirements for them to ensure 
that the certifications are current for their employees?
    Mr. Schenkel. Senator, there are contractual requirements, 
but quite simply, you need oversight and you need a means to 
monitor those and measure their success.
    Senator Collins. But it sounds like there is no 
accountability in this whole system. These security firms are 
being paid tens of millions of dollars a year to provide 
security for vulnerable Federal buildings, buildings at which 
thousands of people work and visit each day. Shouldn't FPS be 
holding the contractors accountable?
    Mr. Schenkel. FPS's responsibility is to provide the 
oversight, not only on the guards, but on the contract 
compliance itself, to ensure that they meet the expectations of 
the contract. The reality is that FPS didn't have anything that 
is workable to actually measure that performance. We have some 
technologies coming online. I know that doesn't solve the 
problem today, and there is no excuse for what has happened 
already. I can tell you, though, that we do have some 
standardized technological solutions to that that will allow us 
to provide immediate oversight. We have also promulgated 
several policies in the last several months, but also the 
reality of that is we need to train to the level of proficiency 
in those policies before we can get to where we need to go.
    Senator Collins. What worries me about your response is you 
have cited technology in the pipeline or people being trained 
now, it is going to take a while. We have an urgent problem. It 
isn't just the threat from al-Qaeda terrorists, it is the 
threat from a domestic terrorist, such as the person who killed 
the guard at the Holocaust Museum. The threat is here and 
present and we know from the GAO study--and the GAO study is 
not the first to identify problems. There was a GAO report in 
June 2008 that identified serious problems. There is the 
Inspector General's report of April that identified serious 
problems. We can't be just working toward solutions. We need to 
have solutions right now, because every day that we don't, 
thousands of people working or visiting these buildings are 
potentially at risk.
    I would ask the Chairman to join me in asking you to 
produce in very short order a corrective plan, or a plan of 
action that tells us specifically what you are going to do, how 
you are going to ensure that the contract employees are living 
up to the requirements for which they are being paid, and also 
providing us with your needs. We are eager to help you get the 
resources, the training, whatever it is that you need to help 
strengthen the security. I think this is urgent enough that you 
should provide that to this Committee within the next couple of 
weeks.
    Chairman Lieberman. No, Senator Collins. I appreciate it. 
And as I indicated earlier, and, of course, we have been 
working together on this, we want to actually put in 
legislation to reauthorize the Federal Protective Service and 
make changes that express the urgency that we feel about 
getting this right. So Senator Collins' request, I join in, 
which is to let us know within the next week or two what you 
need.
    As I mentioned earlier, for now, we have lost confidence, 
so we haven't actually advocated for any significant increase 
in funding with the appropriators this year--and Senator 
Voinovich, who is a Member of this Committee, is the Ranking 
Member of the Appropriations Subcommittee on Homeland 
Security--because we want to get the structure right and the 
management right and then come back and try to fund you 
adequately. But I would urge the same.
    And again, we weren't going to hold a hearing on this until 
the report came in, but we were so jarred and unsettled by some 
of the preliminary indications in the briefing we got from GAO, 
we just thought we should go public with it and then work with 
you and Secretary Napolitano and our colleagues here to get it 
right quickly, because this is a vulnerability.
    Senator Collins. Thank you.
    Chairman Lieberman. Thanks, Senator Collins. Senator 
McCaskill, I believe you were next.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. Thank you, Chairman Lieberman. I 
appreciate this hearing and I wanted to focus in on the 
contracting issue.
    It is my understanding that all of these contracts are 
competitively bid?
    Mr. Schenkel. Yes, Senator.
    Senator McCaskill. And do you have a handle on how many 
different companies are participating in these bids? Is this 
several large companies or are there lots and lots of smaller 
companies?
    Mr. Schenkel. Currently, we have a great number of small 
businesses, that are involved in the contracting business right 
now.
    Senator McCaskill. How many of your current FPS guards are 
retired law enforcement officers?
    Mr. Schenkel. I will have to get that for you, ma'am. I 
don't know.
    Senator McCaskill. I know in my experience, spending time 
in courthouses, that when I go to the Federal courthouse in 
Kansas City, I see a lot of my old friends from the Kansas 
City, Missouri, Police Department that I used to work with when 
I was a young assistant prosecutor and they do a great job, 
these former law enforcement officers. They understand what 
their job is and I think they do a terrific job, and so I would 
be curious to what extent has there been any effort to, in 
fact, use retired law enforcement officers because many of the 
people who retire from front-line police department jobs are 
relatively young people, because of the nature of how young 
they go into policing and the retirement systems that are in 
place in many communities. Early retirement is not unusual. And 
so I would like to know that.
    And what is the cost to the taxpayer for each contract 
employee in your Department versus each Federal employee, 
apples-to-apples jobs?
    Mr. Schenkel. Well, there really aren't any apples-to-
apples jobs, but the contract security guard, we pay roughly 
$36 an hour, if you will, but that is not what the contract 
security guard actually receives. That includes the overhead 
from the company. Overall, a fully-loaded law enforcement 
security officer is about $180,000. That includes training, 
equipment, travel, uniforms, everything. A contract security 
guard comes in at between $63,000 and $85,000 a year.
    Senator McCaskill. So it is half the cost?
    Mr. Schenkel. Roughly.
    Senator McCaskill. OK. I would like you to give that to the 
Committee in writing, if you would, what kind of value are we 
getting out of contracting versus hiring direct Federal 
employees. We have found in many other instances that once the 
math is actually done, that it is surprisingly close, the two, 
and I just think there has been this enormous explosion of 
contracting in the Federal Government without anyone slowing 
down and really doing the cost-benefit analysis as it relates 
to the costs. And obviously, we have a significant cost here 
that we have talked about at length, and that is the risks when 
you don't get people who are required.
    I notice that two-thirds of your budget, about $1 billion, 
are the guards. What is the other third?
    Mr. Schenkel. The other third is our costs. Our operations 
and maintenance budget is about $277 million to support 1,225 
FTEs. Of the $1.3 billion, the rest is either pass-through for 
contract security guards or other security measures that have 
to be funded through our customer agencies.
    Senator McCaskill. So what you are saying is one-third of 
the budget is administrative support for the other two-thirds? 
Because your job is actually guarding, correct?
    Mr. Schenkel. Our job is to provide the recommended 
protective measures. Our law enforcement mission, our LESOs, 
our 1,225 FTEs are supported out of that $277 million. The rest 
is for countermeasures or supportive countermeasures, that 
being the contract security guards or equipment that goes along 
with the security mission.
    Senator McCaskill. I know that you all have discussed this 
to some extent, but the 1,200 people, their job is just to be 
supervising the contract guards?
    Mr. Schenkel. That is not their lone responsibility, 
Senator. That is just part of their responsibility. As part of 
their facility security assessment and then contract 
performance oversight, it includes not only the active patrol, 
which is also tied directly to the guard post inspections and 
oversight. That is a good portion of their responsibility. But 
they are not directed just to oversee the guards. That is only 
a part of their mission.
    Senator McCaskill. And what is the other part of their 
mission, besides overseeing the guards, if you could?
    Mr. Schenkel. That is providing the facility security 
assessments, occupant emergency plans, training for occupants 
of buildings, their regular law enforcement missions, arrests, 
prevention of damage to properties, responding to 
demonstrations----
    Senator McCaskill. Tell me about the arrests. I mean, where 
do they have direct line responsibility for arrests?
    Mr. Schenkel. On the Federal property.
    Senator McCaskill. So when something occurs in a courthouse 
that would require an arrest, they are called by the guards?
    Mr. Schenkel. In a courthouse, it is a slightly different 
situation in that the courthouse has U.S. Marshals and Court 
Security Officers, which are their contract security guards. We 
only do the perimeters of a courthouse. But, say, in a Federal 
building in Chicago, if there is an incident on that property 
or in that Federal building, it would be our officers 
responding and making the arrest.
    Senator McCaskill. And in terms of security, when we wanted 
to open an office on a streetfront, was it your employees that 
came out to look to tell us that we shouldn't?
    Mr. Schenkel. We are obligated to provide the facility 
security assessment, in other words, to tell you the benefits 
or perhaps the problems with opening a Federal facility in a 
certain location.
    Senator McCaskill. And that would be one of those 1,200 
people that came out to look at the facility that we moved into 
and give a risk assessment as it relates to that facility?
    Mr. Schenkel. It is actually only about half of that 1,200. 
There are only about 600 inspectors of the 1,200 FTEs that 
actually is involved directly with the facility security 
assessments, the guard oversight, and the response.
    Senator McCaskill. Well, it just worries me a little that a 
third of the budget is for 1,200 people and two-thirds of the 
budget is for 15,000 people. That seems a little heavy-handed 
on the 1,200 side. I will take a look at the budget, and if you 
have any additional information you would like to provide as it 
relates to that budget, I haven't had a chance to drill down 
into it, but I want to make sure that you have adequate 
personnel. And I have no problem, as the Chairman and the 
Ranking Member said, supporting additional funding for the 
protection of these buildings because I think it is needed. 
Obviously, the GAO study showed how desperately it is needed. 
But I want to make sure that we have a handle on where all the 
money is being spent now.
    Thank you. And by the way, I saw on your resume that you 
graduated from a college in Missouri, so I wanted to note that. 
He is a smart guy. He wants to get it right. He graduated from 
Lindenwood in St. Charles, correct?
    Mr. Schenkel. Yes, ma'am.
    Senator McCaskill. OK. Thank you very much. Thank you, Mr. 
Chairman.
    Chairman Lieberman. Well, I am impressed. Thank you. 
Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman. Thank you 
for having this hearing.
    The Federal Protective Service plays a critical role in 
protecting millions of Federal employees across this Nation and 
I am concerned that we are not doing enough to secure the 
Federal buildings that house these employees. Last year, my 
Subcommittee held a hearing to examine GAO's earlier report 
detailing troubling shortfalls in FPS. It was a huge concern 
over a year ago and it still is a concern. That hearing 
highlighted inadequate funding, staffing, training, and 
equipment, as well as poor oversight of contract security 
guards.
    In response to a plan to further downsize FPS, Congress 
acted to require FPS to maintain at least 1,200 employees to 
adjust its funding to support that staffing. While some 
progress has been made, it continues to struggle, especially in 
the area of training and contract guard oversight. Some guards 
are not receiving mandatory training prior to standing post. 
FPS does not have reliable systems for oversight of contract 
security guards and there is no system in place to verify 
training certification of guards.
    My question to you, Mr. Schenkel, is about cases and 
policies of oversight exercised. FPS's 11 different regions 
sometimes have 11 different ways of doing things. I understand 
FPS recently revised many policies to increase consistency 
among the regions, including updating post orders and contract 
monitoring policies. What steps have you taken to ensure these 
new policies are being followed, and what training is being 
provided to FPS and contract guard employees on these new 
policies?
    Mr. Schenkel. Senator, that is a very good question because 
that tends to lead to what Senator Collins had asked before. 
Our plan is comprehensive in nature and we realize many of 
these shortcomings and we had to reprioritize again after we 
received this GAO report as to what training was the priority 
and where it should go and who should be delivering it, which 
we took on immediately.
    As I said, we published seven financial policies and five 
direct contract guard oversight and contract policies within 
the last 8 months. However, I am not going to lead you astray 
and say that we are fully versed on these things and train to 
them. We have to train to these. We are in the process of doing 
that right now.
    In addition to that, we have also formed a policy 
compliance unit. If you will, it is an oversight of the 
oversight. We have a team that we have formed that actually 
goes out to the respective regions and ensures that, first, 
that these policies are being taught properly and utilized 
properly, and then drilled all the way down to that, not only 
the contract guards, but the Federal Protective Service 
employees are also being held accountable and held accountable 
for compliance with these policies.
    These are all works in progress. I don't mean by any means 
to lead you to think that we are right there right now. But we 
have taken steps in the right direction to get us there.
    Senator Akaka. I mentioned about being concerned with the 
reliability of your systems for oversight of security guards. 
Do you have or are you close to a reliable system?
    Mr. Schenkel. We have three systems that will assist us 
tremendously. Our first and foremost and most important is our 
Risk Assessment Management Program. Right now, we are dependent 
on six different systems, four of which do not belong to us, 
just to provide a facility security assessment. Because of the 
cumbersomeness of this system that is in place now, if you 
will, it can take as much as 8 to 10 days to do one facility 
security assessment. This new RAMP program will expedite that 
through defined algorithms that will actually provide a 
solution based on fact for a facility security assessment.
    In addition to that, it will provide the oversight, the 
necessary compliance pieces, the metrics that will be able to 
track guard force performance, guard certifications, and guard 
compliance. We will be able to pull it up just by the 
individual's name. The individual inspector will be able to 
pull out his or her laptop, open this up, compare the name and 
badge number to the individual's training record, and it will 
be right there. This is coming online in fiscal year 2010.
    In addition to that, we have a Computer-Aided Dispatch 
Information System. Right now, again, as you heard earlier in 
the testimony, we are dependent on a lot of what I call a 
stubby pencils and paperwork to keep track of many of the 
things that we do. The Computer-Aided Dispatch Information 
System will computerize and combine all of our offense reports, 
all of our incident reports, and will also time-stamp the 
activities of all of our people, not just our inspectors. That 
will assist us in validating and defending good staffing 
numbers to where we can come to you and say, we need X number 
because we have demonstrated by using these systems that, in 
fact, it takes longer to do a facility security assessment in 
Montana than it may in New York just because of the geographic 
dispersion.
    In addition to that, we also have a post tracking system 
that is coming in 2010. That post tracking system will replace 
another stubby pencil and paper drill. Right now, our 
inspectors are bogged down doing paper copies, ensuring that 
individual guards are on post. This new post tracking system 
will be an electronic measure that will automatically identify 
and define an individual on post, how long he or she has been 
on post, and take the inspector out of that tedious paper drill 
so he or she can go out there and provide more oversight, more 
training for these guards.
    All of these are coming online in 2010. In reality, it will 
also take us until 2010 to be trained up on these systems, to 
detect any flaws that need to be corrected. It will be a full 
year, I believe, before we are actually incorporated into all 
of these systems, our inspectors are confident in the system, 
and they are all through their training, because we still have 
half of our force in entry-level training, if you will, to 
become an inspector. It is a full 32 weeks. Our first new hires 
are just coming to fruition right now as far as their 
certifications.
    Senator Akaka. Thank you. My time has run out, but let me 
ask this question. Given what we have learned here today, what 
are your top three priorities for FPS's full-time and contract 
guard workforce as the agency moves forward? So you can provide 
it for me in writing, if that is all right.
    Thank you very much, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Akaka. We have 
worked together on this, including the initial request that the 
Committee made for GAO to do this investigation.
    Look, Mr. Schenkel, I know that this has been a tough 
report for you to absorb. This is the first time I have met 
you, but from all I know of your record, you are a devoted 
public servant. But the reality here is, and you said it 
yourself, this is an unacceptable situation. Periodically, we 
ask the Secretary of Homeland Security, of all the threats to 
our homeland security, what keeps you up at night? What do you 
worry about? And I am afraid, based on the GAO report, the 
guards of the 9,000 Federal buildings in the country and the 
people who either work in them or come in and out of them now 
is one of the things that will keep the Committee up at night, 
if you will.
    I know that some of the changes--this is not your fault, 
but the Federal bureaucracy moves slowly, but this is a crisis. 
I hate to hear that you have to wait until next year to 
implement some of the changes that will make things better. I 
hope that in responding to the request that Senator Collins 
mentioned and that she and I make now to you together, that in 
the next 2 weeks, you will provide some report to us on 
immediate steps you are going to continue to take to make the 
situation better and what suggestions you would have for us as 
we prepare legislation, which we will move urgently through to 
help you improve the management of this operation so that next 
year in the budget cycle, or maybe even earlier by way of 
supplemental, we can provide you additional funding once we 
have the confidence that the management structure is in place 
to make this situation better.
    I am also going to ask if you will make yourself available, 
or your staff, on a monthly basis to meet with our bipartisan 
staff, to just get reports on what has been happening in the 
previous month. The Comptroller General has a High-Risk List 
for Federal Government agencies. I think based on today, we are 
going to put Federal Protective Service on our High-Risk List 
and we want to work with you to get it off of that list as 
quickly as possible.
    Fair or not, the reality is that in 10 of 10 tests that we 
heard about today, GAO with bomb-making equipment was able to 
get into 10 different Federal buildings and assemble the bomb 
and walk around with it and we just can't have that. I know you 
agree with that, so that is our mission, to raise our guard, 
because we also know that our terrorist enemies are out there 
every day planning ways to attack us, and unfortunately, 
Federal buildings are a natural, logical target.
    Senator Collins, would you like to make a final statement?
    Senator Collins. Thank you, Mr. Chairman. I just want to 
thank you for so promptly holding this hearing. I want to 
commend the GAO for its investigation and our staff for their 
work on this issue. And I just want to reiterate what you have 
told Mr. Schenkel. This is a crisis. It is simply unacceptable 
that we have such a poor level of security at busy Federal 
buildings that are obvious targets. I don't think we can wait 
to remedy the problems that were outlined and that we have 
discussed in depth today.
    So I look forward to working with you, Mr. Schenkel, as 
well as with the Members of this Committee and the GAO to 
immediately remedy these very serious and alarming gaps in our 
security. It is truly unfathomable that in the world that we 
are living in today, with the lessons of September 11, 2001, 
still fresh in our minds and the most recent incidents that the 
Chairman mentioned in Arkansas as well as here in Washington, 
we know the risk is here and we simply must provide better 
security at obvious targets, such as Federal buildings. Thank 
you.
    Chairman Lieberman. Thank you very much, Senator Collins.
    Just thinking as Senator Collins was talking, this is a 
21st Century version of the shoemaker's children having no 
shoes. We accept the responsibility through the Department of 
Homeland Security to protect the American people, and thank God 
and thank everybody who works in the Department, we have now 
gone almost 8 years since September 11, 2001, without another 
major terrorist attack. The ones that we have had have been 
local and limited, usually homegrown, and yet we are not doing 
the job we should do to protect our own Federal buildings. That 
is unacceptable and I have every confidence that you will work 
with us to make sure that we change that.
    I thank you. The hearing is adjourned.
    [Whereupon, at 12:25 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T1791.001

[GRAPHIC] [TIFF OMITTED] T1791.002

[GRAPHIC] [TIFF OMITTED] T1791.003

[GRAPHIC] [TIFF OMITTED] T1791.004

[GRAPHIC] [TIFF OMITTED] T1791.005

[GRAPHIC] [TIFF OMITTED] T1791.006

[GRAPHIC] [TIFF OMITTED] T1791.007

[GRAPHIC] [TIFF OMITTED] T1791.008

[GRAPHIC] [TIFF OMITTED] T1791.009

[GRAPHIC] [TIFF OMITTED] T1791.010

[GRAPHIC] [TIFF OMITTED] T1791.011

[GRAPHIC] [TIFF OMITTED] T1791.012

[GRAPHIC] [TIFF OMITTED] T1791.013

[GRAPHIC] [TIFF OMITTED] T1791.014

[GRAPHIC] [TIFF OMITTED] T1791.015

[GRAPHIC] [TIFF OMITTED] T1791.016

[GRAPHIC] [TIFF OMITTED] T1791.017

[GRAPHIC] [TIFF OMITTED] T1791.018

[GRAPHIC] [TIFF OMITTED] T1791.019

[GRAPHIC] [TIFF OMITTED] T1791.020

[GRAPHIC] [TIFF OMITTED] T1791.021

[GRAPHIC] [TIFF OMITTED] T1791.022

[GRAPHIC] [TIFF OMITTED] T1791.023

[GRAPHIC] [TIFF OMITTED] T1791.024

[GRAPHIC] [TIFF OMITTED] T1791.025

[GRAPHIC] [TIFF OMITTED] T1791.026

[GRAPHIC] [TIFF OMITTED] T1791.027

[GRAPHIC] [TIFF OMITTED] T1791.028

[GRAPHIC] [TIFF OMITTED] T1791.029

[GRAPHIC] [TIFF OMITTED] T1791.030

[GRAPHIC] [TIFF OMITTED] T1791.031

[GRAPHIC] [TIFF OMITTED] T1791.032

[GRAPHIC] [TIFF OMITTED] T1791.033

[GRAPHIC] [TIFF OMITTED] T1791.034

[GRAPHIC] [TIFF OMITTED] T1791.063

[GRAPHIC] [TIFF OMITTED] T1791.064

[GRAPHIC] [TIFF OMITTED] T1791.065

[GRAPHIC] [TIFF OMITTED] T1791.066

[GRAPHIC] [TIFF OMITTED] T1791.067

[GRAPHIC] [TIFF OMITTED] T1791.035

[GRAPHIC] [TIFF OMITTED] T1791.036

[GRAPHIC] [TIFF OMITTED] T1791.037

[GRAPHIC] [TIFF OMITTED] T1791.038

[GRAPHIC] [TIFF OMITTED] T1791.039

[GRAPHIC] [TIFF OMITTED] T1791.040

[GRAPHIC] [TIFF OMITTED] T1791.041

[GRAPHIC] [TIFF OMITTED] T1791.042

[GRAPHIC] [TIFF OMITTED] T1791.043

[GRAPHIC] [TIFF OMITTED] T1791.044

[GRAPHIC] [TIFF OMITTED] T1791.045

[GRAPHIC] [TIFF OMITTED] T1791.046

[GRAPHIC] [TIFF OMITTED] T1791.047

[GRAPHIC] [TIFF OMITTED] T1791.048

[GRAPHIC] [TIFF OMITTED] T1791.049

[GRAPHIC] [TIFF OMITTED] T1791.050

[GRAPHIC] [TIFF OMITTED] T1791.051

[GRAPHIC] [TIFF OMITTED] T1791.052

[GRAPHIC] [TIFF OMITTED] T1791.053

[GRAPHIC] [TIFF OMITTED] T1791.054

[GRAPHIC] [TIFF OMITTED] T1791.055

[GRAPHIC] [TIFF OMITTED] T1791.056

[GRAPHIC] [TIFF OMITTED] T1791.057

[GRAPHIC] [TIFF OMITTED] T1791.058

[GRAPHIC] [TIFF OMITTED] T1791.059

[GRAPHIC] [TIFF OMITTED] T1791.060

[GRAPHIC] [TIFF OMITTED] T1791.061

[GRAPHIC] [TIFF OMITTED] T1791.062

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
